NO.

IN THE
SUPREME COURT OF THE UNITED STATES

EARL MCBRIDE, JR., PETITIONER
VS
LORIE DAVIS, RESPONDENT

PROOF OF SERVICE
I, Earl McBride, Jr. do swear or declare that on this date
October 6,

2020, as required by Supreme Court Rule 29, I have

service the enclosed Motion to Leave to Proceed IN FORMA PAUPERIS
and PETITION FOR WRIT FOR CERTIORARI on the CLERK OF THE COURT BY
placing the same in the U.S. Mail First Class Postage Prepaid
through TDCJ-ID Ramsey Prison Unit Mailing system, Located at ..
1100 FM 655, Rosharon, Texas

77583, address as follows:

OFFICE OF THE CLERK

Certified Mail No.

SUPREME COURT OF THE UNITED STATES

7019 1120 0001 8646 4747

1 FIRST STREET, NE . E - , WASHINGTON, D.C. 20543
I declare under penalty of perjury that the foregoing is
true and correct, 28 U.S.C.
Executed: October 6,

2020.

§1746.

tT

y

RECEIVED
OCT 1 5 2020
•FFICE OF THE CLERK
SUPREME COURT, U.S.

